Health Care Fraud and Abuse Control Program Annual Report For FY 2002
The Department of Health and Human Services
And
The Department of Justice
Health Care Fraud and Abuse Control Program
Annual Report For FY 2002
SEPTEMBER 2003
TABLE OF CONTENTS
Executive Summary
Introduction
Monetary Results
Program Accomplishments
Department of Health and Human Services
Office of Inspector General
Office of the General Counsel
Administration on Aging
Centers for Medicare and Medicaid Services
Assistant Secretary for Budget, Technology
and Finance
Department of Justice
United States Attorneys
Civil Division
Criminal Division
Civil Rights Division
Justice Management Division
Appendix: Federal Bureau of Investigation - Mandatory
Funding
Glossary of Terms
GENERAL NOTE
All years are fiscal years unless
otherwise noted in the text.
EXECUTIVE SUMMARY
The Health Insurance Portability and Accountability Act of 1996 (HIPAA)
established a national Health Care Fraud and Abuse Control Program (HCFAC
or the Program), under the joint direction of the Attorney General and
the Secretary of the Department of Health and Human Services (HHS)(1),
acting through the Department's Inspector General (HHS/OIG), designed
to coordinate Federal, state and local law enforcement activities with
respect to health care fraud and abuse. In its sixth year of operation,
the Program's continued success again confirmed the soundness of a collaborative
approach to identify and prosecute the most egregious instances of health
care fraud, to prevent future fraud or abuse, and to protect program beneficiaries.
Monetary Results
In 2002, the Federal government won or negotiated more than $1.8 billion
in judgments, settlements, and administrative impositions in health care
fraud cases and proceedings. As a result of these activities, as well
as prior year judgments, settlements, and administrative impositions,
the Federal government collected over $1.6 billion, of which approximately
$1.4 billion was returned to the Medicare Trust Fund. An additional $59
million was recovered as the federal share of Medicaid restitution. This
is the largest return to the government since the inception of the Program.
Enforcement Actions
Federal prosecutors filed 361 criminal indictments in health care fraud
cases in 2002. A total of 480 defendants were convicted for health care
fraud-related crimes during the year. There were also 1,529 civil matters
pending, and 221 civil cases filed in 2002. HHS excluded 3,448 individuals
and entities from participating in the Medicare and Medicaid programs,
or other federally sponsored health care programs, most as a result of
convictions for crimes relating to Medicare or Medicaid, for patient abuse
or neglect, or as a result of licensure revocations.
INTRODUCTION
ANNUAL REPORT OF
THE ATTORNEY GENERAL AND THE SECRETARY
DETAILING EXPENDITURES AND REVENUES
UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM
FOR FISCAL YEAR 2002
As Required by
Section 1817(k)(5) of the Social Security Act
STATUTORY BACKGROUND
The Social Security Act section 1128C(a), as established by the Health
Insurance Portability and Accountability Act of 1996 (P.L. 104-191, HIPAA
or the Act), created the Health Care Fraud and Abuse Control Program,
a far-reaching program to combat fraud and abuse in health care, including
both public and private health plans.
The Act requires that an amount equaling recoveries from health care investigations
-- including criminal fines, forfeitures, civil settlements and judgments,
and administrative penalties, but excluding restitution, compensation
to the victim agency, and relators' shares -- be deposited in the Medicare
Trust Fund.(2) All funds deposited in the
Trust Fund as a result of the Act are available for the operations of
the Trust Fund.
As stated above, the Act appropriates monies from the Medicare Trust Fund
to an expenditure account, called the Health Care Fraud and Abuse Control
Account (the Account), in amounts that the Secretary and Attorney General
jointly certify as necessary to finance anti-fraud activities. The maximum
amounts available for certification are specified in the Act. Certain
of these sums are to be used only for activities of HHS/OIG, with respect
to Medicare and Medicaid programs. In 2002, the Secretary and the Attorney
General certified $209 million for appropriation to the Account. A detailed
breakdown of the allocation of these funds is set forth later in this
report. These resources generally supplement the direct appropriations
of HHS and the Department of Justice (DOJ) that are devoted to health
care fraud enforcement, though they provide the sole source of funding
for Medicare and Medicaid enforcement by HHS/OIG. (Separately, the Federal
Bureau of Investigation (FBI) received $101 million from HIPAA which is
discussed in the Appendix.)
Under the joint direction of the Attorney General and the Secretary, the
Program's goals are:
to coordinate Federal, state and local law enforcement efforts relating
to health care fraud and abuse;
to conduct investigations, audits and evaluations relating to the
delivery of and payment for health care in the United States;
to facilitate enforcement of all applicable remedies for such fraud;
to provide guidance to the health care industry regarding fraudulent
practices; and
to establish a national data bank to receive and report final adverse
actions against health care providers.
The Act requires the Attorney General and the Secretary to submit a joint
annual report to the Congress which identifies both:
the amounts appropriated to the Trust Fund for the previous fiscal
year under various categories and the source of such amounts; and
the amounts appropriated from the Trust Fund for such year for use
by the Attorney General and the Secretary and the justification for
the expenditure of such amounts.
This annual report fulfills the above statutory requirements.
MONETARY RESULTS
As required by the Act, HHS and DOJ must detail in this Annual Report the
amounts deposited and appropriated to the Medicare Trust Fund, and the
source of such deposits. In 2002, as a result of the combined anti-fraud
actions of the Federal and state governments and others, the Federal government
collected a record high of more than $1.6 billion in connection with health
care fraud cases and matters.(3) These
funds were deposited with the Department of the Treasury and the Centers
for Medicare and Medicaid Services (CMS), transferred to other Federal
agencies administering health care programs, or paid to private persons.
The following chart provides a breakdown of the transfers/deposits:
Total Transfers/Deposits by Recipient 2002
Department of the Treasury
HIPAA Deposits to the Medicare Trust
Fund
Gifts and Bequests
$6,820
Amount Equal to Criminal Fines
430,536,063
Civil Monetary Penalties
6,692,976
Amount Equal to Asset Forfeiture *
0
Amount Equal to Penalties and Multiple
Damages
328,566,049
Centers for Medicare and Medicaid Services
OIG Audit Disallowances - Recovered
150,239,823
Restitution/Compensatory Damages
551,205,138
Restitution/Compensatory Damages to
Federal Agencies
Office of Personnel Management
50,571,353
Other Agencies
12,536,742
Relators' Payments **
101,165,649
TOTAL ***
1,631,520,613
*This includes only forfeitures under 18 U.S.C. § 1347, a Federal health
care fraud offense that became effective on August 21, 1996. Not included
are forfeitures obtained in numerous health care fraud cases prosecuted
under Federal mail and wire fraud and other offenses.
**These are funds awarded to private persons who file suits on behalf
of the Federal government under the qui tam provisions of the
False Claims Act, 31 U.S.C. § 3730(b).
***Funds are also collected on behalf of state Medicaid programs and private
insurance companies; these funds are not represented here.
The above transfers include certain collections, or amounts equal to certain
collections, required by HIPAA to be deposited directly into the Medicare
Trust Fund. These amounts include:
Gifts and bequests made unconditionally to the Trust Fund, for the
benefit of the Account or any activity financed through the Account;
Criminal fines recovered in cases involving a Federal health care
offense, including collections under section 24(a) of title 18, United
States Code (relating to health care fraud);
Civil monetary penalties in cases involving a Federal health care
offense;
Amounts resulting from the forfeiture of property by reason of a Federal
health care offense, including collections under section 982(a)(6)
of title 18, United States Code; and
Penalties and damages obtained and otherwise creditable to miscellaneous
receipts of the general fund of the Treasury obtained under sections
3729 through 3733 title 31, United States Code (known as the False
Claims Act, FCA), in cases involving claims related to the provision
of health care items and services (other than funds awarded to a relator,
for restitution or otherwise authorized by law).
HIPAA also requires an independent biannual review of these deposits by
the General Accounting Office (GAO).
PROGRAM ACCOMPLISHMENTS
EXPENDITURES
In the sixth year of operation, the Secretary and the Attorney General
certified $209 million as necessary for the Program. The following chart
gives the allocation by recipient:
2002 ALLOCATION OF HCFAC APPROPRIATION
(Dollars in thousands)
Organization
Allocation
Department of Health and Human Services
Office of Inspector General
(4)
145,000
Office of the General Counsel
4,180
Administration on Aging
2,000
Centers for Medicare and Medicaid Services
2,675
Assistant Secretary for Budget, Technology and
Finance
125
Total
153,980
Department of Justice
United States Attorneys
25,200
Civil Division
26,029
Criminal Division
1,270
Civil Rights Division
1,815
Justice Management Division
886
Total
55,200
TOTAL
$209,180
ACCOMPLISHMENTS
Collections
During this year, the Federal government won or negotiated more than $1.8
billion in judgments, settlements, and administrative impositions in health
care fraud cases and proceedings. As a result of these activities, as
well as prior year judgments, settlements, and administrative impositions,
the Federal government collected $1.6 billion in cases resulting from
health care fraud and abuse, of which approximately $1.4 billion was returned
to the Medicare Trust Fund, and $59 million was recovered as the Federal
share of Medicaid restitution. It should be emphasized that some of the
judgments, settlements, and administrative impositions in 2002 will result
in collections in future years, just as some of the collections in 2002
are attributable to actions from prior years.
Judgments/Settlements
Working together, HHS, DOJ and their partners have brought to successful
conclusion the investigation and prosecution of numerous health care fraud
schemes. Among them are:
TAP Pharmaceutical Products Inc. (TAP), a major pharmaceutical
manufacturer, agreed to pay $875,000,000 to resolve criminal charges
and civil liabilities in connection with its fraudulent pricing and
marketing of the cancer drug, Lupron. Under the global agreement,
TAP agreed to plead guilty to a conspiracy to violate the Prescription
Drug Marketing Act and to pay a $290,000,000 criminal fine. To resolve
its civil liability under the FCA, TAP agreed to pay the United States
$559,483,560 for filing fraudulent claims with Medicare and Medicaid,
and to pay the fifty states and the District of Columbia $25,516,440
for filing fraudulent claims with the states. Additionally, TAP entered
a sweeping corporate integrity agreement which significantly changes
the manner in which TAP supervises its marketing and sales staffs,
and ensures that TAP will report to the Medicare and Medicaid programs
the true average sale price for drugs reimbursed by those programs.
While Medicare does not pay for most drugs, Medicare does cover those,
such as Lupron, that must be injected under the supervision of a physician.
Medicare paid for 80 percent of either the urologist's charge for
Lupron or the average wholesale price (AWP) reported by TAP, whichever
was lower. The government alleged that TAP set and controlled the
price at which the Medicare program reimbursed physicians for the
prescription of Lupron by misreporting its AWP as significantly higher
than the average sales price TAP offered physicians and other customers
for the drug. TAP allegedly "marketed the spread" between its discounted
prices paid by physicians and the significantly higher Medicare reimbursement
based on AWP as an inducement to physicians to obtain their Lupron
business. The government further alleged that TAP concealed the true
discounted prices paid by physicians from Medicare, and falsely advised
physicians to report the higher AWP rather than their real discounted
price for the drug.
The investigation, prosecution and settlement reflect a collaborative
effort among the United States Attorneys Office Massachusetts, the
DOJ, the FBI, the HHS/OIG, the Food and Drug Administration (FDA)
Office of Criminal Investigations and the Department of Defense, Defense
Criminal Investigation Service (DCIS).
Federal Employees Health Benefits. PacifiCare Health Systems
agreed to pay the United States $87.3 million to settle allegations
that it and its predecessor companies violated the FCA with respect
to claims submitted to the Office of Personnel Management (OPM). This
represents the largest civil settlement involving the Federal Employees
Health Benefits Program (FEHBP). Based on an investigation by the
OPM Office of Inspector General, the government alleged that PacifiCare's
subsidiaries failed to follow applicable rules when developing the
rates it charged for health care benefits under its FEHBP contracts,
including failing to give the health care program the same discounted
rates the company gave its similarly situated commercial customers,
failing to coordinate FEHBP benefits with those provided to Medicare
eligible annuitants; and submitting statements to OPM that failed
to fully disclose rate adjustments due to FEHBP.
Medicaid Eligibility. The State of California and the County
of Los Angeles agreed to pay $73.3 million to resolve their civil
liability under the FCA and Civil Monetary Penalties Law for submitting
claims for services provided to minors who were not Medicaid eligible.
The settlement resolves allegations that the State and the County
billed the Federal health care program for services provided to minors
when these jurisdictions had no basis for concluding that these individuals
financially qualified for Medicaid services. The services at issue
in this matter involve treatment for drug and alcohol abuse, pregnancy
and pregnancy related services, family planning, sexual assault treatment,
sexually transmitted diseases and mental health services.
Medicare contractor cases:
General American Life Insurance Company, Inc. (General
American) agreed to pay $76 million to settle allegations of misconduct
occurring when the company served as a Medicare Part B carrier.
General American allegedly failed to process claims properly,
then submitted false information to CMS regarding the accuracy
of and the timeliness with which it handled those claims. The
company also allegedly breached its contract by failing to report
errors identified in the quality assuranceprocess; and concealing
its true error rate by deleting claims selected for review by
CMS and replacing them with claim files that would not significantly
affect their error rate (and so preserve their standing within
carrier performance rankings). Additionally, General American
allegedly hid documents, altered others and falsified numerous
reports. No corporate integrity agreement was entered since General
American has ceased to be a carrier.
In a separate proceeding, General American's former Medicare Director
was sentenced to 27 months in prison for conspiracy to falsify
and conceal information from Federal auditors.
Florida Medical Quality Assurance, Inc. (FMQAI) and its
parent company, Alabama Quality Assurance Foundation (AQAF) agreed
to pay $838,832 to resolve allegations that FMQAI submitted false
claims for reimbursement to Medicare. The two firms are peer review
organizations that perform services under direct contracts with
the CMS. The settlement resulted from a government investigation
following a self-disclosure that revealed the improper charging
to FMQAI's Medicare contract of time and expenses actually spent
on FMQAI's Medicaid contract with a state agency in Florida. A
qui tam complaint was also filed in the case.
Ambulance Services. American Medical Response, Inc. (AMR),
the nation's largest ambulance service provider, agreed to pay $20
million to resolve its civil and administrative liability for false
claims submitted to Medicare. The qui tam action involved
allegations that AMR's Massachusetts subsidiary and certain of its
predecessor companies had billed for medically unnecessary services,
falsified certificates of medical necessity and engaged in other improper
billing practices. As part of the settlement, AMR entered into a 3-year
corporate integrity agreement with HHS/OIG.
Hospital Contractor. KPMD, LLP (KPMG, formerly KPMG Peat Marwick,
LLP), agreed to pay $9 million, plus interest, to the Federal government
to resolve allegations of submitting false hospital cost reports to
the Medicare and Medicaid programs on behalf of clients Basic American
Medical, Inc. and Columbia Hospital Corporation. The government alleged
that KPMG knowingly made claims that were false, exaggerated or ineligible
for payment, and concealed errors from government auditors, thereby
permitting the client hospitals to retain funds to which they were
not entitled. KPMG also prepared "reserve" cost reports detailing
non-allowable expenses and allocations contained in the filed cost
reports and estimated the reimbursement impact in the event that these
non-allowable expenses and allocations were detected on audit.
These and other settlements reflect the culmination of investigations that
have been ongoing for several years.
Quality of Care
One area in which collaboration has proved most effective has been in enforcement
and oversight of issues relating to quality of care, as demonstrated by
the following:
Enforcement Actions. Several important enforcement actions culminated
in 2002:
In Missouri, as the result of a joint investigation by the FBI and
the FDA, a pharmacist diluted drugs that had been prescribed as treatment
for cancer patients. He pleaded guilty to 8 counts of consumer product
tampering, 6 counts of drug adulteration, and 6 counts of drug misbranding,
and was sentenced to a term of 30 years imprisonment. The 30 year
prison term represented an upward departure from the guideline sentencing
range and was the maximum sentence available under the plea agreement.
The pharmacist and his corporation also were ordered to pay a fine
of $25,000 and victim restitution of $10.5 million, which will be
distributed using assets seized during the government's civil prosecution.
On the civil side, the Court entered a consent decree banning the
pharmacist until further order of the Court from practicing pharmacy,
possessing pharmacy licenses, or violating any provision of the Food,
Drug, & Cosmetic Act. The assets previously frozen in the civil
case were transferred to the criminal case for use as restitution
by victims. The pharmacist confessed to diluting in excess of 60 different
drugs beginning in 1992 until his arrest in August of 2001. All of
the drugs that may have been diluted were administered intravenously
or through injection. The pharmacist's actions affected approximately
400 physicians, 4,200 patients, and 98,000 prescriptions.
A California physician and clinic owner/operator was convicted of
multiple felony counts, including mail fraud, wire fraud, bankruptcy
fraud and making false statements. The physician deliberately misdiagnosed
patients as suffering from a rare vascular disease that requires patients
to obtain expensive pumps, braces and other medical devices. The physician
was also convicted of making false statements when he filed for bankruptcy
in 1996. The physician was sentenced to 5 years in prison and ordered
to pay $2.87 million in restitution.
An Indiana man was sentenced to 21 months in prison and ordered to
pay $1.9 million in restitution to persons who suffered injury as
a result of his role in a conspiracy to defraud insurance carriers
and cancer patients. The man worked as the business manager for a
practitioner and operator of a medical center. The two aggressively
marketed treatments not approved by FDA to terminally ill cancer patients.
The individual falsely billed these treatments as if the patients
received chemotherapy, and created and submitted false documents to
insurance companies to support the billings.
As the result of a joint investigation by HHS/OIG and the Maryland
Medicaid Fraud Control Unit (MFCU), a registered nurse and owner of
a dialysis clinic was sentenced to 5 years in jail, with all but 18
months suspended, and ordered to pay $100,000 in restitution for Medicaid
fraud and reckless endangerment. In addition, his clinic was fined
$300,000 for Medicaid fraud. For more than two years, the nurse failed
to administer epogen, a synthetic hormone typically administered during
dialysis, and falsified epogen administration flow sheets.
Nursing Facility Quality of Care - OIG Symposium. The HHS/OIG hosted
a symposium entitled, "Nursing Facility Quality of Care: Improving Government
Enforcement Efforts." The symposium sought to enhance the government's
enforcement efforts through an analysis of the current methods utilized
by the government to pursue quality of care cases in nursing homes. The
symposium included a series of case studies presented by attorneys and
investigators who had successfully conducted quality of care cases. The
meeting drew participants from CMS, DOJ, United States Attorneys' Offices
(USAOs), MFCUs, state survey officials, and the HHS/OIG.
Recommendations to Improve Quality of Care. The HHS/OIG issued several
significant reports assessing a variety of facets of the quality of care
provided to program beneficiaries. These included:
Psychotropic Drug Use in Nursing Homes. In response to concerns
expressed by the Senate Special Committee on Aging, HHS/OIG conducted
an evaluation on the use of psychotropic drugs as inappropriate chemical
restraints in nursing homes. The study found that this is not a pervasive
problem. Where there are problems, they are related to inappropriate
dosage, chronic use, a lack of documented benefit to the resident,
and unnecessary duplicate drug therapy. The report also noted a lack
of adequate documentation for residents' psychotropic drug use in
some cases. The HHS/OIG recommended that CMS consider educating providers
to better document the use of these drugs.
Oversight of Ambulatory Surgery Centers (ASCs). An OIG inspection
assessed how and how well State agencies and accreditors oversee ASCs,
and how CMS holds them accountable. ASCs have experienced explosive
growth, more than doubling in number from 1990 to 2000. During the
same time period, the volume and complexity of procedures performed
in ASCs have increased dramatically, from 12,000 to over 101,000 major
procedures annually. For these reasons, oversight is more important
than ever, but Medicare's system of quality oversight is flawed. Nearly
one-third of ASCs have not been recertified for 5 or more years, and
CMS has done little to monitor the performance of State agencies and
accreditors. The report made recommendations to CMS to strengthen
its quality oversight of ASCs. CMS responded positively, but did not
fully commit itself to some recommendations, particularly those calling
for a minimum survey cycle and a more accessible complaint process.
Physician's Role in Medicare Home Health 2001. The HHS/OIG
released a final inspection report on the physician's role in Medicare
home health. Based on interviews with physicians and review of CMS
claims data, this study found that physicians are currently playing
a key role in initiating, certifying, and monitoring the care for
Medicare home health beneficiaries. However, they feel they have limited
knowledge of Medicare home health rules and CMS' expectations of them.
At present, the availability of reimbursement for their oversight
role does not seem to have significant impact on physicians who care
for Medicare home health patients. In order to address physician concerns
and improve the Medicare home health services, HHS/OIG recommended
that CMS establish a working group of their Physician Regulations
Issues Team to improve communication and to consider modifying the
physician home health oversight role.
Pharmaceuticals
Enforcement Actions:  Prescription drug pricing remains an important
area of inquiry for the HCFAC program. A number of investigations, audits
and evaluations focused on whether the government is paying reasonable
and appropriate amounts for covered prescription drugs. For example:
In Florida, Eckerd Corporation agreed to pay the government
$5.9 million and to enter into a 5-year corporate integrity agreement
to resolve the corporation's liability for submitting claims for partially
filled prescriptions. A qui tam alleged that between 1986
and 2000, the chain pharmacy submitted false claims each time it dispensed
only a portion of a prescription to beneficiaries, but billed Medicaid,
TRICARE and the Federal Employee Health Benefits Program (FEHBP) for
the full amount of the prescription.
In Maine, the twenty-first person was sentenced for his role in leading
a large-scale OxyContin distribution ring. The man was sentenced to
21 years and 10 months in prison and ordered to pay $6,000 in restitution
for health care fraud, conspiracy to acquire controlled substances
by fraud, and conspiracy to distribute and possess with intent to
distribute controlled substances. In a related Federal case, he was
also sentenced to life in prison after being found guilty in a separate
jury trial for distribution of a controlled substance resulting in
death.
Studies of Medicare and Medicaid Drug Pricing and Payment:
Medicaid Payments for Prescription Drugs: The HHS/OIG found
that Medicaid could save significant dollars in reimbursements to
pharmacies for brand name and generic prescription drugs. Most states
use AWP, minus a percentage discount, as a basis for reimbursing pharmacies
for drug prescriptions. In 1999, this discount averaged about 10 percent
nationally, which HHS/OIG believes is not sufficient to ensure that
reasonable prices are paid. Based on pricing information from pharmacies
in eight states, HHS/OIG estimated that the nationwide actual acquisition
cost averaged about 22 percent for brand name and 66 percent for generic
below AWP. HHS/OIG estimated that the Medicaid program could have
saved as much as $1.6 billion in 1999 for the top 200 brand and generic
drugs if reimbursements had been made suing the lower averages. This
savings calculation was limited to ingredient acquisition costs and
did not address other costs, such as dispensing fees.
Hospitals
Improperly Reported and Paid Discharges: Under Medicare rules, a
consolidation of hospitals is considered a change of ownership. After
a consolidation, only the surviving hospital would be entitled to Medicare
payments because it was the legal owner on the date patients were discharged.
The HHS/OIG conducted a review to determine whether hospitals that ceased
to exist after consolidation with another hospital improperly submitted
claims for prospective payment system discharges. The review revealed
that 15 such hospitals were improperly paid $8 million for 1,118 prospective
payment system discharges. These claims were submitted and paid because
neither the fiscal intermediaries nor the hospitals had a clear understanding
of Medicare payment rules on hospital consolidations. The DOJ has reached
settlements, and fiscal intermediaries have begun collecting the overpayments.
Disproportionate Share Hospital Payments: The Medicare, Medicaid,
and State Child Health Insurance Program Benefits Improvement and Protection
Act of 2000 increased public hospitals' Medicaid disproportionate share
hospital (DSH) reimbursement from 100 percent to 175 percent of uncompensated
care costs--a change expected to increase Federal spending by $380 million
during FYs 2003 through 2005. Based on recent and ongoing reviews, HHS/OIG
has concluded that the reimbursement increase may not be warranted. These
studies have shown that DSH payments are not always retained by public
hospitals, are often returned to the states for other uses, and are not
always calculated correctly. The HHS/OIG recommended that CMS seek legislation
to at least delay, if not repeal, the implementation of the increase in
DSH payments until the need for and use of DSH funds for direct care of
uninsured patients can be examined.
If the new limit is implemented, additional legislative reform is needed
to ensure that DSH funds remain at the hospitals to provide care to vulnerable
populations. CMS initially concurred, but later said that it would not
seek a legislative change.
Reviews during 2002 found that DSH payments to some hospitals in California
and Missouri exceeded the individual hospitals' uncompensated costs, contrary
to provisions of the Omnibus Budget Reconciliation Act of 1993. DSH payments
to one hospital exceeded its hospital-specific limit by $38.7 million.
In both states, the limits were overstated because the states' calculations
were flawed. The HHS/OIG recommended that the states return the overpayments
to the Federal government and implement procedures and controls to prevent
similar claims.
A more detailed description of these and other accomplishments of the major
Federal participants in the coordinated effort established under HIPAA
follows. While information in this report is presented in the context
of a single agency, most of these accomplishments reflect the combined
efforts of HHS, DOJ and other partners in the anti-fraud efforts.
FUNDING FOR DEPARTMENT OF HEALTH AND HUMAN
SERVICES
Office of Inspector General
Certain of the funds appropriated under HIPAA are, by law, set aside for
Medicare and Medicaid activities of HHS/OIG. During the sixth year of
the Program, the Act provided that between $140 and $150 million be devoted
to these purposes. The Secretary and the Attorney General jointly allotted
$145 million to HHS/OIG in 2002, an increase of $15 million over 2001.
HHS/OIG conducted or participated in 753 prosecutions or settlements in
2002, of which 568, or 75 percent, were health care cases. A total of
3,448 individuals and entities were also excluded, many as a result of
criminal convictions for crimes related to Medicare or Medicaid (670);
or to other health care programs (138); for patient abuse or neglect (296);
or as a result of licensure revocations (1,720).
In addition to HHS/OIG's role in bringing about the judgments and settlements
described in the Overview of Accomplishments, HHS acted on HHS/OIG recommendations
and collected $150.2 million in disallowances of improperly paid health
care funds in 2002. HHS/OIG continues to work with CMS to develop and
implement recommendations to correct systemic vulnerabilities detected
during HHS/OIG evaluations and audits. These corrective actions often
result in health care funds not expended (that is, funds put to better
use as a result of implemented HHS/OIG initiatives). In 2002, such funds
not expended amounted to more than $19.8 billion -- nearly $14.3 billion
in Medicare savings, and $5.6 billion in savings to the Medicaid program.
Fraud and Abuse Prevention
HIPAA's increased resources have enabled HHS/OIG to broaden its efforts
both to detect fraud and abuse, and to prevent it. Prevention initiatives,
such as those listed below, inform and assist the health care industry
and its patients. Equally important, these prevention activities reduce
program losses and enforcement costs.
Industry Guidance: The centerpiece of the HIPAA guidance initiatives
is an advisory opinion process through which parties may obtain binding
legal guidance as to whether their existing or proposed health care
business transactions run afoul of the Federal anti-kickback statute,
the civil monetary penalties laws, or the exclusion provisions. During
2002, HHS/OIG issued 20 opinions. A total of 86 advisory opinions
have been issued since 1997. The advisory opinion process serves to
enhance HHS/OIG's understanding of new and emerging health care business
arrangements, and informs the development of new safe harbor regulations,
fraud alerts, and special advisory bulletins.
Corporate Integrity Agreements, and the Inspector General's Open
Letter: Many health care providers that enter agreements with
the government in settlement of potential liability for violations
of the FCA also agree to adhere to a separate corporate integrity
agreement (CIA). Under this agreement, the provider commits to establishing
a program or taking other specified steps to ensure its future compliance
with Medicare and Medicaid rules. These agreements require a substantial
effort by the provider to ensure that the organization is operating
in accordance with Federal health care program requirements and the
parameters established by the CIA. At the close of 2002, HHS/OIG was
monitoring more than 325 CIAs.
On November 20, 2001, the Inspector General issued an "Open
Letter to Health Care Providers" in which she announced modifications
to CIAs in response to concerns expressed by the provider and enforcement
community. The full text of the letter can be found on the Internet
at http://oig.hhs.gov
.
Medicare Error Rate: The HHS/OIG estimated that improper
Medicare benefit payments made during 2001 totaled $12.1 billion,
or about 6.3 percent of the $191.8 billion in processed fee-for-service
payments reported by CMS. These improper payments, as in past years,
reflect a range of conduct, from reimbursement for services provided
but inadequately documented, to inadvertent mistakes, to outright
fraud and abuse.
The 2001 estimate of improper payments is almost half the $23.2 billion
that was first estimated for 1996. As a rate of error, the current
6.3 percent estimate is the lowest to date, less than half the 13.8
percent reported for 1996. However, HHS/OIG advised CMS to continue
its efforts to ensure that providers maintain adequate documentation
supporting billed services, bill only for services that are medically
necessary, and properly code claims.
Recommendations for Systemic Improvements:  Frequently, investigations,
audits and evaluations reveal vulnerabilities or incentives for questionable
or fraudulent financial practices in agency programs or administrative
processes. As required by the Inspector General Act, HHS/OIG makes
recommendations to address these vulnerabilities, and thereby promotes
economy and efficiency in HHS programs and operations. Relying on
the independent factual information generated by HHS/OIG, agency managers
recommend legislative proposals or other corrective actions that,
when enacted or implemented, close loopholes and reduce improper payments
or conduct. The net savings from these joint efforts toward program
improvements can be substantial. Many of the studies described throughout
this report offered evidence and ideas supporting proposals for significant
cost savings during 2002 and beyond. Examples of these reviews include
the following:
Capped Rental Equipment: Medicare Part B pays for certain
pieces of durable medical equipment such as hospital beds, nebulizers,
and wheelchairs under the capped rental category. After a certain
period of time, beneficiaries are given the option to purchase
the equipment. If they opt to do so, Medicare will pay for repairs
to the equipment. If the beneficiary continues to rent, Medicare
will pay a semiannual sum to cover maintenance and servicing of
the equipment; a fee that is paid regardless of whether such services
are actually provided. The HHS/OIG tracked payments for more than
3,500 pieces of durable medical equipment that were purchased
or leased in 1996. This 5-year analysis disclosed that Medicare
paid substantially more for maintenance on rented equipment than
it did for repairs on purchased equipment. Furthermore, an analysis
of supplier documentation found only 9 percent of the capped rental
equipment actually received any maintenance and servicing. For
these reasons, the OIG recommended that CMS eliminate the semiannual
maintenance payment for rental equipment and, instead, pay only
for repairs when needed. This would result in approximately $100
million being saved each year by Medicare and its beneficiaries.
The CMS agreed with the recommendations and will consider a legislative
initiative to eliminate the rental option altogether.
Delinquent Medicare Debt: Despite CMS' significant progress
in managing debt, especially at Medicare contractors, serious
problems remain. The HHS/OIG identified an estimated $670 million
(absolute value) in misstated and misclassified delinquent Medicare
debt in information reported to the Treasury Department. Misstatements
included $450 million in reconciliation errors, $68 million in
unsupported or unrecorded transactions, and $152 million in classification
errors regarding the debt's eligibility for referral to Treasury
for collection. Also, CMS did not have an adequate process for
pursuing debt using the required demand letters. The CMS agreed
with HHS/OIG recommendations for improving supporting documentation,
periodic reconciliations, and supervisory review of delinquent
debt activities.
Incorrectly Reported Hospital Transfers:  Reviews continued
to find significant problems with hospital reporting of inpatient
prospective payment system (PPS) transfers as discharges. Since
1992, the number of incorrectly reported transfers has trended
downward but remains high. The HHS/OIG identified over 153,000
claims for incorrectly reported transfers from January 1992 through
June 2000 with potential overpayments totaling nearly $233 million.
Contributing causes include misapplication of the PPS transfer
policy by CMS regional offices and fiscal intermediaries, problems
with computer system interfaces at hospitals, and breakdowns in
communication between hospitals' medical and billing staffs. The
HHS/OIG recommended, among other things, that CMS clarify instructions
on the PPS transfer policy and initiate collection of the overpayments
identified to date. The CMS agreed to collect overpayments for
the 4-year period specified in regulations regarding the reopening
of Medicare claims.
Another review found that Medicare paid 1,610 hospitals an additional
$6.8 million because the hospitals reported patients as having
left against medical advice (called LAMA discharges), when, in
actuality, the patients were admitted to another hospital on the
same day. This problem occurred primarily because LAMA discharges
were not included in the computerized system edits designed to
detect same-day discharge and admission to another hospital. CMS
generally concurred with recommendations to recover overpayments
and develop adequate internal controls and monitoring safeguards
to detect and address transfers reported as LAMA discharges.
Deported Beneficiaries: At the request of the Senate Finance
Committee, HHS/OIG examined Medicare payments made on behalf of
deported beneficiaries. Of an identified 1,072 deported Medicare
beneficiaries, 49 had improper payments totaling $837,000 made
on their behalf during 1998 and 1999. These payments occurred
because CMS did not include deportation information in its main
database of Medicare enrollment data for processing payments to
fee-for-service or managed care providers. In addition to recommending
financial adjustments, HHS/OIG recommended that CMS use the deportation
information already in its possession to preclude such improper
payments. The CMS generally concurred.
Nail Debridement Services: An HHS/OIG evaluation found
that Medicare paid approximately $97 million for inappropriate
nail debridement and related services during calendar year 2000.
Almost one-fourth (22.7 percent) of the sampled claims did not
have adequate medical justification to support Medicare payment.
This represented approximately $51.2 million in Medicare payments.
In addition, the study showed that more than half (60 percent)
of the inappropriately paid nail debridement claims also contained
related podiatry services. When a nail debridement payment is
determined to be inappropriate, the other podiatry payments for
services related to the nail debridement are also inappropriate.
Medicare paid $45.6 million for such related services. CMS agreed
to require carriers to closely scrutinize payment for nail debridement
services through medical reviews and require podiatrists to adequately
document the medical need for all nail debridements.
Program Exclusions:  The HHS/OIG excluded 3,448 individuals
and entities from participation in Medicare, Medicaid and other Federal
health care programs. Such exclusions are a vital way to prevent continued
fraud and to protect program beneficiaries. Exclusions included:
A Missouri transportation company owner/operator was excluded
for 15 years after he was convicted of submitting or causing the
submission of false claims for ambulance services provided to
patients. Additionally, he entered into a $325,000 settlement
agreement in a parallel civil suit.
In Colorado, two certified nurse aides (CNAs) were convicted in
a time-card fraud scheme that lasted more than a year and resulted
in a loss to Medicaid of approximately $63,000. Additionally,
one of the CNAs had previously been convicted and had violated
his parole. Both were excluded for 10 years.
Focus on Quality of Care
HHS/OIG investigations, audits and evaluations focus not just on improper
billing for health care services, but also the quality of care provided
to program beneficiaries. Activities designed to promote or safeguard
beneficiary care included:
Enforcement Actions:
National HealthCare Corporation (NHC) and related entities agreed
to pay the government $250,000 to resolve a FCA and administrative
actions involving quality of care problems. NHC is a publicly
traded nationwide nursing home chain with a number of facilities
in Missouri, including Joplin. The case stemmed from a complaint
survey performed by the Missouri Division of Aging in 1998. The
survey cited the Joplin facility for failure to prevent pressure
sores, prevent accidents and maintain proper nutrition; these
issues were primarily attributed to Joplin's failure to maintain
a proper staffing level. As part of the settlement, NHC also agreed
to a comprehensive corporate integrity agreement for Joplin.
In Louisiana, Twin Oaks Nursing Home, Inc. (Twin Oaks), agreed
to pay the government $100,000 to resolve allegations of failing
to provide appropriate care. Issues included deficiencies in documentation,
improper staffing levels, inadequate supplies and deteriorated
equipment. Twin Oaks also agreed to enter into a 5-year corporate
integrity agreement that includes a quality monitor requirement.
A licensed practical nurse at a Pennsylvania nursing home was
sentenced to 10 months incarceration and lost her nursing license
for falsifying a patient's record after a medication error was
discovered. The error was a contributing factor in the patient's
later death.
Other Judgments and Settlements.
In addition to the significant enforcement actions described in the Program
Accomplishments section of this report, and those immediately above, HHS/OIG
conducted or participated in numerous investigations that resulted in
prosecution or settlement during 2002, involving all aspects of the health
care industry. These include:
Kickbacks: The Balanced Budget Act of 1997 authorized the HHS/OIG
to impose civil monetary penalties against those who pay or receive
remuneration in violation of the anti-kickback statute. During 2002,
the HHS/OIG stepped up enforcement efforts under this administrative
authority. Among these actions were:
A Tennessee investigation revealed a scheme in which a mobile
ultrasound company paid referral fees to physicians, ostensibly
in the form of rent, to induce the physicians to refer Medicare
beneficiaries for diagnostic testing. The ultrasound company and
its owners agreed to pay $225,000 to resolve their civil monetary
penalty liability for violations of the anti-kickback statute
and the physician self-referral (Stark) law. Under the settlement
agreement, the company ceased operations, one owner agreed to
a permanent exclusion from participation in Federal health care
programs, and the other owner agreed to certify to HHS/OIG concerning
her employment and compensation over the next five years. In separate
actions, HHS/OIG entered settlement agreements with a physician
group and individual physicians for the payment of a total of
$117,900 to resolve their civil monetary penalty liability for
this arrangement.
A Georgia corporation that provides home infusion services self-disclosed
a kickback arrangement involving one of its subsidiaries. The
operator of that subsidiary paid illegal fees to a nurse at a
local hospital in exchange for the nurse's referring Medicare
and Medicaid patients to the subsidiary's home infusion facility.
The operator paid the nurse a fixed percent of collected net revenues
for referred patients, and disguised those referral fees as sales
commissions. When headquarters discovered the kickback arrangement,
the operator was terminated, and the location closed. The U.S.
Attorney's Office declined to pursue the case under the civil
FCA because it determined that the HHS/OIG's civil monetary penalty
authority was a more appropriate remedy in this kickback case.
The company agreed to pay $130,691 and to implement certain measures
to supplement its current compliance program.
Allina Health System, a large integrated health care organization
operating a variety of medically-related facilities and businesses,
agreed to pay more than $16 million to settle allegations that it
submitted false claims to the Medicare, Medicaid and TRICARE programs.
The government alleged that Allina's hospitals and clinics violated
the FCA by knowingly seeking reimbursement through a variety of improper
billing methods, such as duplicate billing and upcoding. The settlement
also resolves qui tam claims that Allina knowingly retained
overpayments after the company's own audits demonstrated that it had
submitted erroneous claims. As part of the settlement, Allina agreed
to enter into a comprehensive 5-year corporate integrity agreement
covering all of its lines of business.
In one of the longest sentences ever imposed in a Federal health care
case, a Texas woman was sentenced to 17.5 years in jail and ordered
to pay over $9.3 million in restitution and over $3,000 in special
assessments after being convicted on 32 counts of health care fraud.
The woman defrauded Medicare, Medicaid and several private insurance
companies by billing for services not rendered through multiple clinics
she established (some of which were entirely fictitious). The false
claims included inpatient hospital visits, physical therapy and chemotherapy.
Although first indicted on 17 counts of health care fraud in April
2000, the woman continued her false billings and as a result, was
indicted on 15 additional counts of health care fraud in May 2001.
Evidence showed that the woman, even after two indictments, still continued
to falsely bill health care programs for services not rendered.
Molina Healthcare of California, Inc., doing business as Molina Medical
Centers (Molina), a Medicaid managed care plan in California, paid
$600,000 to resolve its civil monetary penalty liability for furnishing
false and misleading information to Medicaid beneficiaries. Molina
sent over 17,000 letters to its Medicaid enrollees stating that if
these beneficiaries did not re-enroll with Molina they would lose
access to their primary care physicians. Further, these letters appeared
as though they were sent directly from the beneficiaries' physicians;
in reality, they were sent by a mailing house at the direction of
Molina.
In Florida, four individuals were sentenced to an average length of
imprisonment of 11 years and ordered jointly to pay a total of $11.7
million in restitution for conspiracy, fraud and money laundering.
The four conspired to defraud Medicare and Medicaid by submitting
false claims for laboratory tests. To carry out their scheme, the
group used confidential Medicare and Medicaid information to prepare
laboratory test requisitions for tests not actually performed. Using
the requisitions to support the corresponding Medicare and Medicaid
claims, the four fraudulently obtained payments from the programs.
Office of the General Counsel
The Office of the General Counsel (OGC) was allocated $4.18 million in
HCFAC funding for 2002 to supplement OGC's efforts to support the Administration's
program integrity activities. These funds were used primarily for litigation
activity, both administrative and judicial.
Accomplishments:
Suspensions
OGC provided legal advice and review to CMS for more than 90 suspension
actions. Based on reliable evidence of fraud, CMS suspended payments
involving over $50 million to a Florida medical laboratory. Plaintiff
filed a Federal court action that was dismissed and then pursued its
administrative remedies, while DOJ initiated a fraud investigation.
Litigation
In nursing home enforcement, OGC opened 310 new administrative cases
before the Departmental Appeals Board (DAB) in 2002. Civil Monetary
Penalties (CMPs) against nursing homes totaled $10.893 million resulting
from favorable DAB decisions and negotiated settlements. Before the
Sixth Circuit Court of Appeals OGC briefed and argued a case in a
nursing home's appeal of a DAB decision upholding all deficiencies
and a $365,000 CMP.
DOJ sued a supplier of special mattresses for wound care, seeking
to recover $1 million in overpayments on the theories of fraud, unjust
enrichment, and mistake of fact. OGC provided litigation support and
programmatic advice to DOJ as the Medicare overpayment case proceeded
to trial.
Bankruptcies
OGC continues to be heavily involved with CMS's bankruptcy workload.
OGC protects Medicare funds by asserting CMS's recoupment rights to
collect overpayments, by arguing to continue suspension or termination
actions against debtors or by seeking adequate assurances from the
bankruptcy court that CMS's interests in the debtor's estate will
be protected, by arguing for the assumption of the Medicare provider
agreement as an executory contract, and by petitioning for administrative
costs where appropriate.
"First Ruling" in Holyoke Nursing Home v. HCFA, the
Bankruptcy Court for the District of Massachusetts followed the view
of the 9th Circuit (In re TLC Hosp. Inc.) in holding
that Medicare's overpayment recoveries effectuated through payment
withholding constituted permissible recoupment (i.e. were neither
avoidable preferential transfers prior to filing nor unauthorized
offsets in violation of the automatic stay after filing). Medicare
payments are part of a single ongoing transaction between a provider
and the Program and, as such, are subject to recoupment.
Policy Guidance and Education
OGC worked with CMS Central Office on implementing web-based surveyor
training, and recommended revisions to the case studies used in long
term care surveyors' training. OGC attorneys also provided training
directly, making presentations to approximately 175 California surveyors
on surveying, documenting, and defending legally sufficient deficiencies,
and instructing on legal aspects of surveying, documentation, and
effective witness skills through "Basic Long Term Care Surveyor Training"
to over 100 surveyors from several states.
OGC established "practice groups" which identify national issues requiring
policy clarifications and the most effective and efficient means of
litigating long term care enforcement cases before the DAB.
OGC provided legal guidance and assistance in drafting regulations
involving: home health agencies, provider enrollment, coordination
of benefits, and statistical analysis.
Administration on Aging
In 2002, the Administration on Aging (AoA) was allocated $2 million in
HCFAC funds to develop and disseminate consumer education information
to older Americans, with a particular focus on persons with low health
literacy, individuals from culturally diverse backgrounds, persons living
in rural areas, and other vulnerable populations. AoA and its nationwide
network of agencies supported community education activities designed
to assist older Americans and their families to recognize and report potential
errors or fraudulent situations in the Medicare and Medicaid programs.
Accomplishments:
National Technical Assistance Resource Centers: AoA continued
to support four national resource centers that provide materials and
technical assistance to professionals who serve older Americans in
their communities. The purpose of the resource centers is to educate
and empower vulnerable and culturally diverse older Americans and
their families to take a more active role in monitoring and protecting
the benefit integrity of the Medicare and Medicaid programs;
National Health Care Fraud and Abuse Control Program Conference:
AoA convened a national conference in Washington, D.C., which brought
together more than 250 Federal, state, and community partners who
are working to protect the benefit integrity of the Medicare and Medicaid
programs. The purpose of the conference was to share successful products
and practices, strengthen collaboration between Federal, state and
local partners, and to work to advance the performance of the complaint
referral process, outcome tracking mechanisms, and honor outstanding
senior volunteers;
Senior Medicare Patrol Projects: AoA provided technical assistance
to AoA's 51 Senior Medicare Patrol (SMP) projects, located in 45 states
plus the District of Columbia and Puerto Rico. The purpose of these
projects is to recruit and train retired individuals to educate seniors
in their communities about how they can help prevent and detect potential
Medicare and Medicaid error, fraud, and abuse. In 2002, the projects
trained 9,000 senior volunteers who directly educated 485,000 Medicare
beneficiaries in their communities on topics such as how to read their
Medicare summary notices;
Development of Senior Medicare Patrol Website: AoA maintained
a website dedicated to providing information about Medicare and Medicaid
error, fraud, and abuse targeted to older Americans and community-based
professionals who serve aging adults and their families. The site
promotes consumer awareness and facilitates the sharing of information
and best practices between Medicare and Medicaid beneficiaries, and
AoA's grantees and partners. The website also links seniors to information
about how to become a volunteer;
Community Education Materials: HCFAC funding also supported
the design and distribution of health care journals and community
education videos in English, Spanish, and Mandarin Chinese. A particular
emphasis was made to target this information to AoA's nationwide network
of aging service professionals;
through a variety of television, radio, and print media events. While
it is not possible to directly track all of the cases reported and dollars
recovered through these community education activities, these projects
reported nearly $15 million in Medicare, Medicaid, and other health insurance
dollars recouped over the last six months of 2002;
Centers for Medicare and Medicaid Services
In 2002, $2.675 million in HCFAC funds was allocated to the CMS to provide
Federal grant funding for states to participate in the second year of
the Medicaid Payment Accuracy Measurement (PAM) project, which develops
payment accuracy measurement methodologies and conducts pilot studies
to measure and reduce state Medicaid payment errors.
Each of the twelve states will pilot test the CMS PAM Model. This model
was developed by CMS and The Lewin Group, in collaboration with the nine
states that participated during the first year of the project. The CMS
PAM Model was designed to explore the feasibility of conducting payment
accuracy studies in all states using a single methodology that can produce
both state-specific and national level payment accuracy estimates. In
addition, the CMS PAM Model has been designed to estimate payment accuracy
for both the fee for service and managed care components of the Medicaid
program. Of the twelve states, seven states will pilot test the model
in fee-for-service, one state will pilot test the model in managed care,
and four states will pilot test the model in both fee for service and
managed care.
All states were solicited to participate in the PAM demonstration project
under the authority of section 402(a)(1)(j) of the Social Security Act
Amendments of 1967.
Accomplishments
In response to the May 2002 all-state solicitation, CMS received applications
from twelve states to participate in the PAM project; all twelve states
were awarded grants in September 2002. The twelve states are: Florida,
Indiana, Louisiana, Mississippi, Nebraska, New York, North Carolina,
North Dakota, Oklahoma, Texas, Washington, and Wyoming. Notably, eight
of these twelve states (Louisiana, Mississippi, New York, North Carolina,
North Dakota, Texas, Washington and Wyoming) also participated in
the first year of the project.
CMS and The Lewin Group will be providing technical assistance to
the twelve states during the second year of the project to ensure
uniform implementation of the CMS PAM Model. Del Marva, a subcontractor
to The Lewin Group, will be preparing medical review guidelines and
conducting a quality assurance study of the error determination processes
in each state to ensure consistency.
The Lewin Group will also be conducting an analysis of the major factors
influencing project costs to assist CMS in projecting the future costs
of nationwide PAM project implementation.
Assistant Secretary for Budget, Technology
and Finance
For 2002, $125,000 of funds from the Account were transferred to the Office
of the Budget, Technology, and Finance to support the Unified Financial
Management System (UFMS) Program. The overall strategic goal of the program
is to unify HHS' financial management by designing and implementing a
modern, Department-wide financial management system. Once fully implemented,
UFMS will significantly enhance the Department's internal controls, management's
stewardship, and accountability over financial transactions, operations,
and assets. The unified system will be comprised of two primary sub-components-a
system for CMS and its Medicare contractors (the Healthcare Integrated
General Ledger and Accounting System (HIGLAS)) and another system for
the rest of HHS. UFMS will also institute a consolidated departmental
financial reporting capability. HHS will ensure the new system's compliance
with statutory requirements of the Chief Financial Officers Act of 1990,
the Federal Financial Management Improvement Act of 1996, the Reports
Consolidation Act of 2000, the Federal Manager's Financial Integrity Act
(FMFIA) of 1982, and other pertinent laws.
FUNDING FOR DEPARTMENT OF JUSTICE
United States Attorneys
Health care fraud involves a variety of schemes that defraud public insurers,
private insurers and health care providers nationwide. In addition to
Medicare and Medicaid, a number of federally funded health benefit programs
have been the targets of health care fraud schemes. The fraudulent activity
may include double billing schemes, kickbacks, billing for unnecessary
or unperformed tests, or fraudulent activity may relate to the quality
of care provided to patients. In addition to monetary losses, some improper
activities endanger patient safety. United States Attorneys' offices (USAOs)
are responsible for civil and criminal prosecutions of health care professionals,
providers and others.
USAOs continue to strengthen and refine cooperative efforts with Federal,
state and local law enforcement agencies involved in the prevention, evaluation,
detection, and investigation of health care fraud and abuse. In addition
to the FBI, HHS/OIG and CMS, USAOs work with State MFCUs, State Attorneys
General, Offices of Inspectors General for a number of federal agencies,
Drug Enforcement Administration (DEA), FDA, DCIS and TRICARE Support Office.
Each USAO has appointed both a civil and a criminal health care fraud coordinator
to assist in tracking referrals, overseeing investigations and facilitating
communication between Federal, state and local law enforcement groups.
In addition, many cases are investigated in a parallel fashion, so that
the potential criminal and civil remedies are addressed more efficiently,
by the attorneys and agencies investigating the wrongdoing. The criminal
and civil judgments and settlements discussed in the Program Accomplishments
sections of this report provide examples of some significant health care
cases in the USAOs, many of which are investigated as parallel investigations
and prosecutions.
Prior to enactment of the HIPAA, USAOs dedicated substantial resources
to combating health care fraud and abuse. HIPAA allocations have supplemented
those resources by providing dedicated positions for attorneys, paralegals,
auditors and investigators.
Training
The Executive Office for the United States Attorneys'/Office of Legal Education
(OLE) is responsible for providing health care fraud training for Assistant
United States Attorneys (AUSAs) and Department attorneys, paralegals,
investigators, and auditors. During 2002, OLE conducted a number of courses
and presentations on health care fraud, including:
Health Care Fraud Symposium - Criminal AUSAs, Civil AUSAs and FBI
Agents.
Financial Investigations in Health Care Fraud - Health Care Fraud
Paralegals, Investigators and Auditors in USAOs (two week course)
Affirmative Civil Enforcement (ACE) Issues - Civil AUSAs
ACE for Auditors and Investigators - HCF Auditors and Investigators
(3 day course)
Special Topics in Health Care Fraud - Criminal and Civil AUSAs
While the primary participants in OLE-sponsored courses were DOJ employees,
agency counsel and investigative personnel were also invited to participate
as presenters and students. In addition to OLE-sponsored training, a number
of AUSAs, auditors and investigators participated in multi-agency health
care fraud programs, as students and as speakers.
Program Accomplishments - Criminal Prosecutions
The primary objective of criminal prosecution efforts is to ensure the
integrity of our nation's health care programs and to punish and deter
those who, through their improper activities, adversely affect the health
care system and the taxpayers.
Each time a criminal case is accepted for consideration of prosecution
in a USAO, it is opened as a matter pending in the district. A referral
remains a matter until an indictment or information is filed or the case
is declined for prosecution. In 2002, the USAOs had 1,606 health care
criminal matters pending, involving 2,441 defendants.
During 2002, 361 cases were filed involving 608 defendants, a one percent
increase over 2001 in the number of defendants. There were 480 health
care related convictions in 2002, a three percent increase over 2001.
Convictions include both guilty pleas and jury verdicts. A sample of the
criminal cases brought by USAOs, in addition to those set forth in the
overview section of this report, is set out below:
In Alabama, defendants using an Internet website sold prescription
drugs, including Viagra, Xenical, Celebrex, Propecia, and Claritin-D,
to consumers who did not have valid prescriptions written by a licensed
medical practitioner. As part of the scheme, they collected fees for
non-existent medical consultations, repackaged drugs obtained from
a pharmacy and a drug wholesaler (who was not authorized to provide
drugs in Alabama) and shipped the drugs to customers in the United
States and around the world. One defendant was sentenced to 188 months
and another defendant was sentenced to 78 months imprisonment. They
agreed to forfeit $370,000 in assets that had been frozen when the
case was indicted. A third defendant, the drug wholesaler and president
of the pharmaceutical supply corporation, entered a guilty plea. He
was placed on probation for one year, ordered to perform 150 hours
of community service, and pay a $1,500 fine. The corporation was ordered
to pay a $125,000 fine.
In Colorado, a chiropractor was convicted by a jury of submitting
false Medicare claims for a controversial medical procedure known
as chelation therapy. Chelation therapy is a recognized treatment
only to reverse the effects of poisoning with heavy metals (such as
lead). The treatment is carried out through the administration of
an intravenous solution containing a man-made amino acid known as
EDTA (ethylene diamine tetra-acetic acid). The defendant operated
a clinic which catered to heart disease patients, promising the patients
that chelation therapy would reverse or prevent heart disease, hardening
of the arteries, diabetes and other generalized vascular conditions.
The use of EDTA chelation therapy to treat such conditions is considered
experimental and unproven, and Medicare has denied coverage for such
treatments since 1982. The chiropractor obtained payments from Medicare
by misrepresenting who provided the services, what the services were,
and why the patients were being treated. He was sentenced to six years
incarceration and restitution to Medicare of $118,000.
In Kansas, a physician specializing in ear, nose and throat illnesses,
performed unnecessary surgeries; billed for services not rendered;
billed for more expensive procedures than were actually provided (upcoding);
lured patients into unnecessary surgeries that caused them serious
bodily injury; and created false documents as well as provided false
testimony to cover up his fraud. In 1999, the government's expert
witness found that 40 percent of 105 of the defendant's sinus surgeries
were unnecessary; and that from 1998-99, all but one of the 40 mastoid
ear surgeries the physician performed was unnecessary. Further, the
defendant could not have performed the billed surgeries in the extremely
short surgery times recorded. He was sentenced to 6 years in jail.
No restitution or fine was ordered. The physician lost his license,
and agreed to be excluded from Federal health care programs for 15
years after release from prison. Restitution was covered by the civil
medical malpractice suits filed by the victims.
In Maine, an investigation of an ambulance service revealed a variety
of billing irregularities, including: claims to Medicare for ambulance
transportation for patients actually transported in wheelchair vans;
claims for more miles than were actually traveled; claims for advanced
life support that was never provided; and claims for ambulance transports
to hospitals, which is reimbursable, when in fact the patients were
transported to doctors' offices, which is not reimbursable. The investigation
also revealed altered or false documentation to Medicare and Medicaid
auditors during administrative audits. The owner of an ambulance service
was sentenced to 49 months in prison for money laundering, obstructing
a federal audit, and violating Medicare and Medicaid laws. The fraud
totaled $891,492. The ambulance service was placed on probation for
5 years. The defendants were ordered to pay $729,875 in restitution.
A civil agreement with the United States and the State of Maine was
negotiated for additional civil penalties of $300,000. As part of
that agreement, the defendants were barred from doing business with
Medicare, Medicaid, and other federal programs for 15 years.
In New York, a plastic surgeon was charged with this scheme: (1) an
employee of the defendant, who had no medical license and was not
acting under a physician's supervision, performed procedures such
as lesion removals and cosmetic vein injections, which were billed
as though they had been performed by a licensed physician; (2) the
defendant's clinic billed cosmetic procedures, such as tummy-tucks
and liposuctions, as medically necessary procedures, such as hernia
and lesion removals, in order to obtain insurance coverage; (3) the
clinic submitted claims to insurance companies for procedures that
were never performed; and (4) the clinic exaggerated insurance claims
by increasing the number and complexity of procedures actually performed.
At sentencing the judge found that the defendant intended to cause
approximately $2.5 million in losses to 18 private insurance companies.
The judge imposed an upward departure from the sentencing guidelines
range, finding that the defendant's obstruction of justice was "widespread
and diverse," and included tampering with witnesses, attempting to
get other witnesses to lie, falsifying the clinic's medical records,
destroying the clinic's records, submitting a false affidavit to the
court in connection with a bail hearing and committing "wholesale
perjury at trial." The defendant was sentenced to 11 years, 3 months
in prison and ordered to pay $918,000 in restitution to the insurance
company victims.
In Texas, a physician electronically filed medical claim forms for
150 -180 allergy tests he claimed to have performed when, in fact,
he did not have sufficient allergens to perform that number of tests.
Also, he prepared phony progress notes regarding the false allergy
tests in case Medicaid or Medicare requested supporting documentation
when reviewing the claims. The allergy tests were painful and subjected
the patient to possible severe reactions, such as abnormal heart rhythms,
shortness of breath, severe rashes, swelling, and even death. The
doctor had his staff randomly select 13 to 15 patient files per week
and create "phantom" billings for dates on which he neither saw nor
treated the patients whose insurance he billed. He instructed his
staff to create false test results and false documentation, including
progress notes, in order to conceal from Medicaid investigators and
auditors his fraudulent billing activity and he submitted claims totaling
more than $1.3 million to Medicaid for reimbursement on these "phantom"
billings. The physician was sentenced to serve five years in prison
following a guilty plea to health care fraud and money laundering
charges. In addition, he agreed to pay $4 million to the government
insurance programs he defrauded, including Medicare, Medicaid, and
the FEHBP.
Program Accomplishments - Civil Cases
Civil health care fraud efforts constitute a major focus of Affirmative
Civil Enforcement (ACE) activities. The ACE Program helps ensure that
federal laws are obeyed and that violators provide compensation to the
government for losses and damages they cause. Civil health care fraud
matters ordinarily involve the United States utilizing the FCA, as well
as common law fraud remedies, payment by mistake, unjust enrichment and
conversion to recover damages from those who have submitted false or improper
claims to the United States.
Each time a civil referral is made to a USAO it is opened as a matter pending
in the district. Civil health care fraud matters are referred directly
from federal or state investigative agencies, or result from filings by
private persons known as "relators," who file suits on behalf of the Federal
Government under the 1986 qui tam amendments to the FCA. Relators
may be entitled to share in the recoveries resulting from these lawsuits.
At the end of 2002, the USAOs had 1,529 civil health care fraud matters
pending. A matter becomes a case when the United States files a civil
complaint, or intervenes in a qui tam action, in United States
District Court. The vast majority of civil health care fraud cases and
matters are settled without a complaint ever being filed. In 2002, 221
civil health care fraud cases were filed.
A sample of the civil cases brought by USAOs, in addition to those in described
in the overview section, are set forth below.
In California, a health care company and its affiliate agreed to pay
$8.5 million to settle allegations that they and 13 of their hospitals
knowingly defrauded Medicare and other federal health insurance programs
by submitting fraudulent cost reports in order to obtain millions
of dollars for costs which were inflated or not allowable. The Government
alleged that the defendants kept two sets of books - those shown to
the government's auditors and a second "reserve" or "booked" set hidden
from the government which identified the unallowable and inflated
costs included in the filed cost reports - and that the defendants
set aside funds to repay the government in case the unallowable costs
were eventually discovered. The United States' complaint also alleged
fraudulent submissions made to the Medicaid and TRICARE/CHAMPUS programs.
In the Northern District of Florida, companion qui tam lawsuits
were filed alleging improper billings by physicians at a university.
Allegations included false billings for diagnostic tests performed
with inadequately calibrated equipment, inadequate resident supervision,
lab consultations and optical procedures. The university entered into
settlement in excess of $8 million.
In the Southern District of Florida, three home health agencies were
found to have submitted a wide range of false claims, including claims
for treatment not medically necessary, not rendered, or rendered by
unqualified personnel. Many inappropriate costs were included in their
cost reports as well. This case subsequently settled for $29 million.
In Minnesota, a corporation agreed to pay more than $6.1 million to
settle allegations under the FCA concerning a range of issues relating
to its Medicare claims for durable medical equipment, primarily parenteral
and enteral nutrition products and supplies. Two whistle-blower suits
alleged that false claims resulted in Medicare overpayments from 1988
to 1997, as the result of submitting claims on behalf of patients
for whom the company lacked certificates of medical necessity. The
relators also charged that the corporation routinely waived the beneficiary's
portion of the cost of certain goods; accepted and retained payments
exceeding the maximum Medicare allowance for the product or supply;
and submitted claims for urological supplies to the wrong Medicare
contractor for processing, resulting in overpayment.
In New York, a qui tam action was filed alleging that a wound
care company caused its hospital partners to include unallowable marketing
and advertising costs on the costs reports submitted to Medicare for
reimbursement. The wound care company agreed to pay $16.5 million
in settlement of the suit.
Civil Division
Civil Division attorneys vigorously pursue civil remedies in health care
fraud matters, working closely with the USAOs, the FBI, the Inspectors
General of the HHS and the Department of Defense, CMS, and other federal
and state law enforcement agencies. Cases involve providers of health
care services, supplies and equipment, as well as carriers and fiscal
intermediaries, that defraud Medicare, Medicaid, TRICARE, the FEHBP, and
other government health care programs.
Accomplishments
In 2002, the Division opened or filed a total of 74 health care fraud cases
or matters. In addition to these new efforts, the Civil Division pursued
390 existing cases. A significant number of these health care fraud cases
have the potential for particularly high damages. Civil Division attorneys
were actively involved in the recoveries described in the overview - TAP
Pharmaceuticals, PacifiCare Health Systems, General American Life Insurance,
the State of California, American Medical Response, and the KPMG cases.
The following examples demonstrate the breadth and significance of other
cases in which the Division was involved during 2002.
Schering-Plough Corporation agreed to pay $500 million to resolve
allegations that the company did not manufacture drugs in compliance
with FDA regulations - for example, the company manufactured asthma
inhalers without the correct amount of medicine inside. The injunction
allows Schering to manufacture noncompliant products that FDA believes
are necessary to the public health, but requires Schering to disgorge
the profits obtained from the sale of those noncompliant products.
Schering also must make additional payments if it fails to bring these
medically necessary products into full compliance with FDA regulations
in a timely fashion.
Lifemark Hospitals of Florida, a subsidiary of Tenet Healthcare Corporation
paid $29 million for allegedly submitting false Medicare claims for
services provided by three home health agencies. In another settlement,
Tenet paid $17 million to resolve allegations that 139 of its hospitals
overcharged multiple, federally insured health care programs for laboratory
services.
In the Mariner Post-Acute Network bankruptcy, the court approved a
settlement in which Mariner, which operates nursing homes in 25 states,
will pay $26 million to resolve civil fraud liability. Additionally,
Mariner will forfeit its interest in $29 million to resolve Medicare
overpayment liabilities.
In addition to these case-specific accomplishments, the Department's Nursing
Home Initiative, coordinated by the Civil Division, promotes, among other
things, increased prosecution and coordination at Federal, state and local
levels to fight the abuse, neglect, and financial exploitation of the
nation's senior and infirm population. The Department is pursuing a growing
number of cases under the FCA involving providers' egregious "failures
of care." The financial crisis in the nursing home industry has to date
resulted in bankruptcy filings by five of the seven largest nursing home
chains and several smaller chains. These bankruptcy cases are the largest
ever involving health care providers, and raise the specter of failure
of care, as well as financial issues. The significance of these cases
require considerable and ongoing coordination among the Civil Division's
Corporate Finance and Civil Fraud sections, the Criminal Division, CMS,
and HHS/OIG. In addition, as part of the Nursing Home Initiative, the
Department, through the Office of Justice Programs, has made several grants
to further knowledge of the forensic aspects of elder abuse, to promote
prevention, and to assist local prosecutors in elder abuse, neglect, and
exploitation matters.
Also, the Civil Division co-chairs with the Criminal Division the National
Level Health Care Fraud Working Group, which meets quarterly and coordinates
the health care fraud enforcement activities of all concerned Federal
and state agencies.
Vital resources were made available from the Account to provide the Civil
Division with personnel, Automated Litigation Support, auditors, and consultants.
These resources supplemented other Civil Division funds. During 2002,
these monies were used to support a host of health care fraud matters
and the Department's tobacco litigation.
Criminal Division
The Fraud Section of the Criminal Division develops and implements white
collar crime policy and provides support for the Federal white collar
enforcement community. The Fraud Section supports the USAOs with legal
and investigative guidance and, in certain instances, provides trial attorneys
to prosecute criminal fraud cases. For several years, a major focus of
Fraud Section personnel and resources has been to investigate and prosecute
fraud involving Federal health care programs.
The Fraud Section has provided guidance to FBI agents, AUSAs and Criminal
Division attorneys on criminal, civil and administrative tools to combat
health care fraud, and worked on an interagency level through:
coordinating large scale multi-district health care fraud investigations;
providing frequent advice and written materials on confidentiality
and disclosure issues arising in the course of investigations and
legal proceedings regarding medical records;
monitoring and coordinating Departmental responses to major regulatory
initiatives, legislative proposals, and enforcement policy matters.
Examples include issues such as provider education and regulation,
medical records privacy, Internet sales of drugs and medical products
and expansion of the Medicare program to provide prescription drug
benefits;
reviewing and commenting on numerous requests for advisory opinions
submitted by health care providers to the HHS/OIG, and consulting
with the HHS/OIG on draft advisory opinions per the requirements of
HIPAA;
working with CMS officials to promote more effective use of technologies
and high-tech approaches for combating health care fraud and abuse.
Examples include co-sponsoring with CMS two regional conferences and
working with several USAOs to coordinate with CMS during its transition
to Program Safeguard Contractors for conducting anti-fraud detection
work in the Medicare program;
preparing and distributing to all USAOs and FBI field offices periodic
updates on major issues, interagency initiatives, and significant
activities of DOJ's health care fraud component organizations as well
as periodic summaries of recent cases;
organizing and overseeing, in conjunction with the Civil Division,
the National Level Health Care Fraud Working Group to address fraud
in health care and managed care;
participating in interagency working groups formed to address illicit
Internet sales of drugs and medical products and nursing home fraud
and resident abuse;
The Fraud Section has responsibility for handling complex health care fraud
litigation nationwide and examples of successful prosecutions in 2002
include:
HCMF Corporation, a privately owned nursing home chain in Virginia,
which was entitled under the Medicare and Medicaid programs to claim
reimbursement for the administrative costs associated with its operation
of eighteen nursing homes throughout Virginia, pleaded guilty to improperly
claiming reimbursement for salaries and benefits paid to more than
thirty HCMF owners, family members and employees who performed little
or no functions for nursing homes or whose duties were largely unrelated
to operating the homes. As part of its plea agreement, HCMF agreed
to pay restitution to these programs in the amount of $1.7 million,
was sentenced to one year probation and ordered to pay a $275,000
fine. Additionally, HCMF agreed to pay $250,000 of the costs of prosecution.
Both the Chairman of HCMF's Board of Directors and the Treasurer of
HCMF pleaded guilty to making false statements in connection with
a Federal health care program, and concealing information from Medicare
and Medicaid so that HCMF could continue receiving reimbursement.
The Chairman was held jointly and severally liable for the restitution
amount, was sentenced to 30 months probation, and ordered to pay a
fine of $10,000. The Treasurer was sentenced to 24 months of probation,
with 50 hours of community service, and ordered to pay a $2,500 fine.
In addition, these two officers, by virtue of their guilty pleas,
will be excluded from the health care benefit programs for at least
five years.
Two physicians, two licensed pharmacists, and four pharmacy and durable
medical equipment (DME) owners were convicted in the largest Medicare
fraud conspiracy trial in the Southern District of Florida. As part
of the conspiracy, the defendants paid patients for their Medicare
cards and for signing blank delivery receipts without receiving any
medication. The physician defendants issued fraudulent prescriptions
to the patients, ordered unnecessary tests, medical equipment and
medication, and thereafter the DME defendants forwarded the prescriptions
to co-conspirator pharmacies and submitted false bills to Medicare
in excess of $15 million for medication and medical equipment that
was never delivered. Additionally, the pharmacist and pharmacy owner
defendants, who were unwilling to buy expensive medications approved
by the FDA in the volumes necessary to fill prescriptions, manufactured
unnecessary, non-FDA approved medications through a process called
"compounding," and provided the DME companies with documentation reflecting
full deliveries of FDA-approved medications even though "compounded"
medications were supplied and often times only half or none of the
medication was actually delivered to the DME companies. Following
a 5 ½ month trial, a jury convicted the eight defendants of conspiracy
to defraud the United States and additionally convicted one defendant
of filing false claims, paying kickbacks, and conspiracy to commit
money laundering; a second defendant of paying kickbacks; and a third
defendant of filing false claims and paying kickbacks. Eighteen co-defendants
entered guilty pleas prior to trial.
Civil Rights Division
The Special Litigation Section of the Civil Rights Division vigorously
pursues relief affecting public, residential health care facilities and
has established an Institutional Health Care Abuse and Neglect Initiative
to carry out the Department's initiative to eliminate abuse and grossly
substandard care in Medicare and Medicaid funded nursing homes and other
long-term care facilities.
The Section plays a critical role in the HCFAC Program and is the sole
Department component responsible for the Civil Rights of Institutionalized
Persons Act, 42 U.S.C. § 1997 (CRIPA). CRIPA authorizes investigation
of conditions of confinement at state and local residential institutions
(including facilities for persons with developmental disabilities or mental
illness, and nursing homes) and initiation of civil action for injunctive
relief to remedy a pattern or practice of violations of the constitution
or federal statutory rights. The review of conditions in facilities for
the mentally ill and for persons with developmental disabilities, and
nursing homes comprises a significant portion of the program. The Special
Litigation Section works collaboratively with the USAOs around the country
and with HHS.
Accomplishments
As part of the Department's Institutional Health Care Abuse and Neglect
Initiative, and as an enhancement to the Department's ongoing CRIPA enforcement
efforts, the Special Litigation Section staff reviewed conditions and
services at 60 nursing home facilities in 24 states during 2002. The task
in preliminary inquiries is to determine whether there is sufficient information
supporting allegations of unlawful conditions to warrant formal investigation
under CRIPA.
The section reviews information pertaining to areas such as abuse and neglect,
medical and mental health care, use of restraints, fire and environmental
safety, and placement in the most integrated setting appropriate to individual
needs.
In 2002, the Special Litigation Section opened full CRIPA investigations
of four nursing homes: Mercer County Nursing Home in Trenton, New Jersey;
Nim Henson Geriatric Center in Breathitt County, Kentucky; Reginald P.
White Nursing Facility in Meridian, Mississippi; and Claudette Box Nursing
Facility in Mt. Vernon, Alabama. The Section resolved its CRIPA investigation
of the Long Term Care Division of the Bergen Regional Medical Center in
Paramus, New Jersey through a memorandum of understanding that provides
for improved medical care, accident and fall prevention, reduced use of
restraints and an assessment of whether the residents are being served
in the most integrated setting appropriate to their needs.
Staff participated in ongoing nursing home investigations, including the
investigation of Laguna Honda Hospital in San Francisco, California, the
largest public nursing home facility in the United States; and Bradley
County Health Care and Rehabilitation Center in Cleveland, Tennessee.
Section staff also completed the investigation of Banks-Jackson-Commerce
Medical Center/Nursing Home in Commerce, Georgia, and sent a letter of
findings to appropriate public officials. These investigations involved
on site evaluation tours with expert consultants, review of documentary
evidence and interviews of staff.
In 2002, the Division filed a joint motion to dismiss United States
v. City of Philadelphia (E.D. Pa.), its CRIPA case involving conditions
and practices at the Philadelphia Nursing Home. The court dismissed the
case based on the demonstrated compliance of the City in meeting the terms
of the consent decree.
In addition, the staff conducted a new CRIPA investigation of one residential
facility for persons with developmental disabilities: New Lisbon Developmental
Center in New Lisbon, New Jersey. Special Litigation Section staff conducted
tours of the facility, accompanied by expert consultants, reviewed documents,
and interviewed facility staff.
In 2002, the Section found that conditions and practices at two state-operated
facilities for persons with developmental disabilities, Woodward and Glenwood
Resource Centers in Iowa, violate the residents' federal constitutional
and statutory rights. The Division informed the State that the psychiatric
and psychological care and community placement programs at both Woodward
and Glenwood failed to meet accepted professional standards and that Woodward
is resorting to improperly restraining residents in lieu of adequate psychological
and behavioral services, treatment, and training. Finally, the Division
informed the Governor that the State is failing to ensure that residents
at both facilities are being served in the most integrated setting appropriate
to meet their individualized needs.
The Section continued its investigations of the following residential facilities
for the developmentally disabled: Agnews and Sonora Developmental Centers
in California; Pinecrest and Hammond Developmental Centers in Louisiana;
Landmark Learning Center in Florida; Holly Center in Maryland; New Castle
Developmental Center in Indiana; Rainier Residential Rehabilitation Center
and Frances Haddon Morgan Centers in Washington; and Oakwood Developmental
Center in Kentucky. In many of these investigations, negotiations toward
settlement are continuing regarding the correction of remaining deficient
conditions. In some of these matters, the Section is reviewing voluntary
compliance to improve conditions.
The Section also initiated an investigation of four mental health facilities
in North Carolina: John Umstead Hospital, Dorothea Dix Hospital, Cherry
Hospital and Broughton Hospital. The Section continued to review compliance
with a plan to correct identified deficiencies at Western State Hospital,
a mental health facility in Staunton, Virginia.
The Section staff also conducted compliance reviews in ongoing CRIPA cases
involving a variety of facilities: United States v. Tennessee
(M.D. Tenn.) involving Clover Bottom Developmental Center, Harold Jordan
Center, and Greene Valley Developmental Center; United States v.
Tennessee (W.D. Tenn.) involving Arlington Developmental Center;
United States v. Tennessee (D. Tenn.) involving the Memphis
Mental Health Institute; United States v. New Mexico (D.
N. Mex.) involving the New Mexico School for the Visually Handicapped;
United States v. Connecticut (D. Conn.) involving Southbury
Training School; United States v. Hawaii (D. Haw.) involving
Hawaii State Hospital and the community mental health system; and United
States v. Indiana involving Ft. Wayne Developmental Center
and Muscatatuck Developmental Center in Indiana. The Section is continuing
to pursue Evans and United States v. Williams (D. D.C.)
which was filed prior to the passage of CRIPA and involves hundreds of
community placements for members of the class with developmental disabilities
in the District of Columbia. In each of these cases, staff reviewed compliance
with the terms of previously filed agreements and court orders.
In addition to its law enforcement activities, the Special Litigation Section
is responsible for representing the Civil Rights Division in the Department's
health care fraud activities. The Section participates, for example, as
a Department and Civil Rights representative on an inter-agency Nursing
Home Steering Committee. The Section has also participated in public education
and outreach by speaking and participating at both national and regional
conferences on quality of care in health care facilities.
Justice Management Division
The Justice Management Division, Debt Collection Management Staff continues
to perform for the Program various administrative and coordination duties.
The duties of the office include: budget formulations, oversight and coordinating
with the Office of Management and Budget and CMS; coordinating with HHS/OIG
and the Department of the Treasury on the tracking of collections; coordinating
with the GAO on required audits; and preparation and coordination of the
annual report.
APPENDIX
Federal Bureau of Investigation
Mandatory Funding
"There are hereby appropriated from the general fund of the United
States Treasury and hereby appropriated to the Account for transfer
to the Federal Bureau of Investigation to carry out the purpose described
in subparagraph (C), to be available without further appropriation
- (I) for fiscal year 2002, $101,000,000."
The FBI works many health care fraud cases on a joint basis with other
federal agencies, including the HHS/OIG. These two federal agencies collaborate
through attendance at health care fraud working groups and each other's
training conferences, case referral exchanges, and a liaison program between
the two organizations. In addition, most health care fraud task forces
formed by FBI field divisions represent the coordinated efforts among
the FBI, MFCUs and state and local law enforcement, federal investigative
agencies such as HHS/OIG, and private industry. The FBI and HHS/OIG continue
to share a common commitment to ending fragmented health care fraud enforcement
efforts and encouraging the coordination of investigative resources. The
FBI, however, is the only federal investigative agency to have jurisdiction
over both government sponsored health care programs and privately funded
health care programs.
Under HIPAA, the FBI was provided $101 million in 2002 for health care
fraud enforcement. As the FBI has increased the number of agents assigned
to health care fraud investigations, the number of pending investigations
has increased over 400 percent, rising from 591 cases in 1992 to 2,418
cases through 2002. Federal and state criminal health care fraud convictions
resulting from FBI investigations have risen from 116 in 1992, to 549
through 2002. While the September 11, 2001 terrorist attacks temporarily
affected the FBI's health care fraud enforcement program, health care
fraud investigations remain a priority at the FBI. In 2002, the FBI sponsored
training for approximately 100 agents having less than one year experience
investigating health care fraud matters, advanced financial analysis training
for health care support employees, and an advanced training covering the
latest schemes and investigative techniques. In addition, the FBI recently
dedicated additional training at Quantico for new agents to work on health
care fraud matters.
The FBI continues to explore new ways to identify health care fraud. One
of the innovative techniques initiated in 2002 by the FBI, in partnership
with CMS, is the Medicare/Medicaid Data Analysis Center. This pilot project
is analyzing claims made to both the federal Medicare and state Medicaid
programs by the same providers in order to identify aberrant billing patterns,
unusual growth in billings and/or utilization of services or treatments,
billing for unusual time frames (i.e., more than 24 hours a day), and
other indicia of potential fraud against both programs. Analysis from
the project will be forwarded to the field divisions as health care referrals
in previously undetected areas of fraud. The FBI expects to expand this
pilot project in 2003.
A considerable portion of the increased funding was utilized to support
major health care fraud investigations. In addition, operational support
has been provided for FBI national initiatives focusing on pharmaceutical
diversion, chiropractic fraud, medical clinics, and transportation providers.
Further, the FBI continues to support individual field offices with equipment
and to assist in various individual investigations.
GLOSSARY
The Account - The Health Care Fraud and Abuse Control Account
ACE - Affirmative Civil Enforcement
AoA - Administration on Aging
ASBTF - Assistant Secretary for Budget, Technology and Finance
CIA - Corporate Integrity Agreement
CMS - Centers for Medicare and Medicaid Services
CRIPA - Civil Rights of Institutionalized Persons Act
DME - Durable Medical Equipment
DOJ - The Department of Justice
FBI - Federal Bureau of Investigation
FCA - False Claims Act
FDA - Food and Drug Administration
FEHBP - Federal Employees Health Benefits Program
GAO - General Accounting Office
HHS - The Department of Health and Human Services
HIPAA, or the Act - The Health Insurance Portability and Accountability
Act of 1996, P.L. 104-191
OGC - The Department of Health and Human Services, Office of the General
Counsel
OIG - The Department of Health and Human Services, Office of Inspector
General
OLE - Office of Legal Education, located within the Executive Office for
the United States Attorneys
PAM - payment accuracy measurements
The Program - The Health Care Fraud and Abuse Control Program
Secretary - The Secretary of the Department of Health and Human Services
SMP - Senior Medicare Patrol
TAG - Technical Advisory Group
USAO - United States Attorney's Office
1. Hereafter, referred to as the Secretary.
2. Also known as the Hospital Insurance (HI) Trust Fund.
All further references to the Medicare Trust Fund refer to the HI Trust
Fund.
3. In 2002, DOJ collected, or continued to hold in suspension,
additional funds from health care fraud cases and matters that were not
disbursed to the affected agencies and/or the Account in 2002 due to:
(i) ongoing litigation regarding relator shares in qui tam cases
that will affect the amount retained by the Federal government; and (ii)
receipt of funds late in the year that were then processed in FY 2003.
4. In addition, HHS/OIG obligated $2,059,000 in funds
received as "reimbursement for the costs of conducting investigations
and audits and for monitoring compliance plans" as authorized by section
1128C(b) of the Social Security Act, 42 U.S.C. § 1320a-7c(b).